David L. Hatchett
Direct:
Email:

317.464.2621
david.hatchett@h2lawyers.com

February 7, 2020

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Joslyn Manufacturing Company, LLC et al. v. Valbruna Slater Steel Corp., et al.,
No: 19-917

Dear Mr. Harris:
On behalf of Respondents Valbruna Slater Steel Corporation and Fort Wayne Steel Corporation
in the above-captioned case, I hereby request, pursuant to Rule 30.4 of the Rules of this Court, an
extension of time to and including March 23, 2020, within which to file a brief in opposition to
certiorari in this case. The petition for a writ of certiorari was filed on January 21, 2020, after
Petitioners received a 30-day extension to file same. Respondents’ brief in opposition is currently
due on February 21, 2020, the original deadline specified by the Court.
This initial extension to and including March 23, 2020 is respectfully requested due to counsel’s
other professional commitments.
Thank you in advance for your attention this matter, and please do not hesitate to contact me should
you need additional information.
Sincerely,

David L. Hatchett

Cc (via U.S. & Electronic Mail): Carter G. Phillips, Counsel of Record for Petitioners

